GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

November 15, 2019
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: No. 19-386, Monroe County Commission v. A.A. Nettles, Sr. Properties Ltd., et al.
Dear Mr. Harris,
I am writing to register Petitioner’s objection to Respondents’ request, filed today, for an
additional 30-day extension of time to file their response to our petition for a writ of certiorari in
the above-captioned case. As I represented to counsel for Respondents when he sought Petitioner’s
consent to their request, Petitioner objects on the ground that the additional extension of time
would make it impossible for the Court to hear argument in and decide the case this Term should
it choose to grant the petition.
Respondents have known since at least July 12, 2019—when Petitioner sought an extension
of time to file the petition—that Petitioner planned to file a cert. petition and had retained Supreme
Court counsel to do so. The petition was filed on September 23, 2019. After waiving their right
to file a response, Respondents sought a 30-day extension (with Petitioner’s consent) when the
Court called for a response. Respondents’ response is now due on December 12, 2019—80 days
after the cert. petition was filed. In other words, Respondents have had ample time to retain
Supreme Court counsel to respond to the cert. petition if that was their desire.
An additional extension would prejudice Petitioner because it would make it impossible
for the Court to hear argument in and decide this case this Term if the Court chooses to grant the
petition. Under the current schedule, the Court will be able to consider the Petition at its first
conference in January, if Petitioner waives the 14-day waiting period (which Petitioner plans to
do). Petitioner respectfully requests that the Court deny Respondents’ request for an additional
extension of time to file their response to the petition for a writ of certiorari.
Very truly yours,

Sarah E. Harrington
cc: Respondents’ counsel
(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

